Audit Report




OIG-07-029
Management Letter for the Fiscal Year 2006 Audit of the
Department of the Treasury’s Financial Statements


February 9, 2007




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             February 9, 2007


            MEMORANDUM FOR RICHARD HOLCOMB
                           ACTING CHIEF FINANCIAL OFFICER

                                  WES FOSTER
                                  ACTING ASSISTANT SECRETARY FOR MANAGEMENT

            FROM:                 Joel A. Grover
                                  Deputy Assistant Inspector General
                                    for Financial Management and Information
                                    Technology Audits

            SUBJECT:              Management Letter for the Fiscal Year 2006 Audit of the
                                  Department of the Treasury’s Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury’s (Department) fiscal year (FY) 2006
            financial statements. Under a contract monitored by the Office of Inspector
            General, KPMG LLP, an independent certified public accounting firm, performed the
            audit of the Department’s FY 2006 financial statements. The contract required that
            the audit be performed in accordance with generally accepted government auditing
            standards, Office of Management and Budget Bulletin No. 06-03, Audit
            Requirements for Federal Financial Statements, and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses certain matters involving internal control over
            financial reporting and its operation that were identified during the audit which
            were not required to be included in the audit report.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.
Page 2

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment

cc:   Harold Damelin
      Inspector General

      Marla A. Freedman
      Assistant Inspector General For Audit
DEPARTMENT OF THE TREASURY 

      FISCAL YEAR 2006 

    Management Letter Report 


       November 13, 2006 

                            DEPARTMENT OF THE TREASURY
                                        Fiscal Year 2006
                                     Management Letter Report



                                        Table of Contents

                                                                                  Page

Transmittal Letter                                                                   3

       06-01: Succession Planning (Repeat Comment)                                   5
      06-02: Financial Reporting Standards for Treasury’s Component Entities
             (Repeat Comment)                                                        8
      06-03: The Exchange Stabilization Fund’s Budgetary Accounting
             Methodology (Repeat Comment)                                           10
       06-04: Financial Reporting Practices at the Departmental Level               12
      06-05: OMB Circular A-123, Management’s Responsibility for Internal
             Control                                                                15
      06-06: Intragovernmental Transactions and Activities                          20
      06-07: Performance Measures                                                   21
      06-08: Deferred Maintenance                                                   22
      06-09: Backup Tapes for the Treasury Information Executive Repository
             (TIER) System and CFO Vision Production Servers (Repeat
             Comment)                                                               23
      06-10: Continuity of Operations Plan and Disaster Recovery Procedures for
             TIER and CFO Vision (Repeat Comment)                                   24
      06-11: Segregation of Duties                                                  26
      06-12: User Account Passwords                                                 28
      06-13: User Accounts                                                          29
Exhibit 1 – Status of Prior Year Management Letter Comments                         32




                                                2

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




Inspector General
U.S. Department of the Treasury
Washington D.C.


November 13, 2006


We have audited the consolidated financial statements of the U.S. Department of the Treasury
(Department) for the year ended September 30, 2006, and we have issued our report thereon dated
November 13, 2006. Our report indicated that we did not audit the amounts included in the
consolidated financial statements related to the Internal Revenue Service (IRS), a component entity
of the Department. The financial statements of the IRS were audited by another auditor whose
report has been provided to us.
In planning and performing our audit of the consolidated financial statements of the Department, we
considered the Department’s internal control as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements but not for the purpose of expressing
an opinion on the effectiveness of the Department’s internal control. Accordingly, we do not
express an opinion on the effectiveness of the Department’s internal control.
During our fiscal year (FY) 2006 audit of the Department’s consolidated financial statements, we
and the other auditor noted certain matters involving internal control and other operational matters
that we considered to be reportable conditions under standards established by the American Institute
of Certified Public Accountants (AICPA). Reportable conditions are matters coming to our attention
relating to significant deficiencies in the design or operation of internal control that, in our
judgment, could adversely affect the Department’s ability to record, process, summarize, and report
financial data consistent with the assertions of management in the consolidated financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that misstatements
caused by error or fraud, in amounts that would be material in relation to the consolidated financial
statements being audited, may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of inherent limitations in internal
control, misstatements, due to error or fraud, may nevertheless occur and not be detected.
Our consideration of internal control would not necessarily disclose all matters in internal control
that might be reportable conditions. In our Independent Auditors’ Report dated November 13, 2006,
we reported the following matters involving internal control and its operation that we and the other
auditor considered to be reportable conditions:
•	 Financial Management Practices at the IRS (Repeat Condition);
•	 Electronic Data Processing (EDP) Controls and Information Security Programs Over Financial
   Systems (Repeat Condition); and
•	 Controls Over Transactions and Balances Related to the International Assistance Programs.




                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
The reportable condition related to the financial management practices at the IRS noted above is
considered to be a material weakness. Detailed findings and recommendations to address the above
reportable conditions are not repeated within this document.
Our audit procedures were designed primarily to enable us to form an opinion, based on our audit
and the report of the other auditor, on the Department’s consolidated financial statements and,
therefore, may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the Department’s organization gained during our work to make
comments and suggestions that we hope are useful.
Although not considered reportable conditions, we noted certain matters involving internal control
and other operational matters that are presented in the attachment for your consideration. These
comments and recommendations, all of which have been discussed with the appropriate members of
the Department management, are intended to improve the Department’s internal control or result in
other operating efficiencies. The matters presented in this letter do not include any internal control
or operational matters that may have been presented to the management of the Department’s
operating bureaus that were separately audited by other auditors.
We reviewed all eleven of the prior year management letter comments and determined the status of
corrective actions for each. Of the eleven findings:

•   Five were corrected;
•   One was partially corrected; and
•   Five were not corrected.
Exhibit 1 provides the status of the eleven recommendations included in our management letter
arising from the FY 05 audit. We have not considered the Department’s internal control since the
date of our report.
We appreciate the courteous and professional assistance that Department personnel extended to us
during our audit. We would be pleased to discuss these comments and recommendations with you at
any time.
The Department’s written response to our comments and recommendations has not been subjected
to the auditing procedures applied in the audit of the consolidated financial statements and,
accordingly, we express no opinion on it.
This communication is intended solely for the information and use of the management of the
Department, Department’s Office of Inspector General (OIG), Office of Management and Budget,
Government Accountability Office, and Congress, and is not intended to be and should not be used
by anyone other than these specified parties.




November 13, 2006




                                                  4

                         FISCAL YEAR 2006 RECOMMENDATIONS


06-01: Succession Planning (Repeat Comment)

In our fiscal year (FY) 2005 audit, we reported that several key personnel having significant
institutional knowledge of the Department’s accounting and reporting processes within various
Departmental offices were at or near retirement eligibility status. Furthermore, we noted no policies
or procedures related to succession planning, or staff being trained to succeed these individuals. In
FY 06, we noted that some improvements had been made, but significant succession planning
activities still remained to be conducted to prevent serious loss of operational and institutional
knowledge in the event of unexpected absences or retirement by key officials. Details related to
some of the Departmental offices we observed as needing immediate succession planning actions
follow.

The Office of Accounting and Internal Control (AIC) is responsible for Treasury-wide financial
accounting and reporting matters, such as preparation of the consolidated financial statements and
notes for the Department, and provides financial policy guidance to the bureaus and offices of the
Department. AIC deals directly in broad matters of domestic and international finance, financial
markets, Federal, State, and local finance (including the Federal debt), Federal Government credit
policies, and lending and privatization. AIC has experienced senior staff critical to carrying out its
financial management mission. These individuals, whom we customarily deal with during the
consolidated audit, have significant institutional knowledge and will soon be eligible for retirement.

During FY 06, we noted that within AIC, two experienced new staff joined during FY 06 (one in
the accounting branch, and one in the internal control branch), two contractors had been used to
assist with various year-end consolidated financial statement activities, and various standard
operating procedures had been documented for guidance purposes. Although these activities reflect
management’s commitment to take corrective action, these activities will not significantly improve
AIC’s capability to continue with mission-critical activities if a key AIC staff member is
unexpectedly unavailable to perform his/her duties. For example, during the FY 06 interim audit
work conducted during July and August 2006, significant delays were experienced in receiving
requested audit documentation and/or explanations to audit-related questions due to the unexpected
absence of one key AIC staff member, and leave taken by another key AIC staff member causing
significant interim audit completion delays since these individuals were critical in terms of support
for the audit.

The Office of Performance Budgeting (OPB) is responsible for the Department’s budget execution
and for financial management of the Department’s International Assistance program, among other
duties. OPB is a small office with employees with budget formulation and execution
responsibilities. Two key officials with significant institutional knowledge and skills, whom we
customarily deal with to resolve Treasury budgetary-related matters, are also eligible for immediate
retirement. We are not aware of and did not observe any staff being trained to perform their duties
under the supervision of OPB senior staff.




                                                  5

Further, we are not aware of any plans by the Department to provide additional staff to perform the
key duties within AIC and OPB as part of succession planning. Succession planning is a
government-wide issue that the Government Accountability Office (GAO) has identified as
requiring attention by top government officials. In addition to the lack of trained staff to take over
such positions, AIC and OPB still do not have a complete set of standard operating procedures that
would help new staff understand how to perform their duties should the need arise.

The Office of Personnel Management (OPM) issues regulations related to personnel management
for the Federal government. GAO has issued several reports citing the need for succession planning
by the government in order to address workforce challenges. In an April 21, 2005, testimony1
before the Senate Subcommittee on Oversight of Government Management, the Federal Workforce,
and the District of Columbia, GAO stated:

           A key piece of an agency’s strategic human capital plan should also
           acknowledge the demographic trends that the agency faces with its workforce,
           especially pending retirements, and include succession strategies and training
           and development programs to ensure that it will have the knowledge, skills, and
           abilities it needs to meet its mission…

           Training and developing new and current staff to fill new roles and work in
           different ways will transform how agencies do business and engage employees
           in further innovation and improvements.

AIC and OPB have not been able to hire the staff necessary, nor have they been able to train other
Treasury staff to assume their responsibilities, due in part to budget constraints. This is the second
year that succession planning has been identified as a recommendation. In the event of the
retirement or sudden prolonged absence of one or more of these individuals, Treasury would face a
serious loss of operational and institutional knowledge absent any adequate, formalized succession
plan, resulting in serious financial management deficiencies.

In conclusion, we continue to have significant concerns that the amount of resources (training,
tools, and staff) available to implement successful succession planning is lacking. Department
support for succession planning and actions to prepare for the future are needed now, given the long
lead times needed to ensure the knowledge and skills of key staff are transferred effectively. We
acknowledge that at a time of budget constraints and deadlines that Departmental offices must
meet, it is difficult to request additional staff or to train other staff to assume additional
responsibilities. However, the day-to-day constraints should not be allowed to deter the Department
from the advance planning and preparation needed to ensure that its offices will be able to perform
their responsibilities effectively in the absence of key senior staff members. Any further delays in


1
  U.S. Government Accountability Office, Human Capital: Agencies Need Leadership and the Supporting Infrastructure
to Take Advantage of New Flexibilities, GAO-05-616T, April 21, 2005.




                                                        6

this process will impact the Department’s future ability to manage financial accounting and
reporting activities.

06-01 Recommendations

We recommend that the Acting Assistant Secretary for Management (ASM), Acting Chief Financial
Officer (CFO), and Deputy Assistant Secretary for Human Resources and Chief Human Capital
Officer, with input from the Directors of AIC and OPB, as well as other offices, as appropriate:

1.	 Consider what actions can be taken now, without additional staff, to ensure that if a key staff
    member is unexpectedly unavailable to perform his/her duties, that the offices’ mission will be
    met with minimal disruption, and document these as necessary.

2.	 Clearly define the roles and responsibilities, organizational structure of AIC and OPB, and
    critical success factors that are necessary to manage the financial reporting activities needed to
    support the Department-wide financial management practices.

3.	 Perform a human capital needs assessment, with particular focus on AIC and OPB management
    skills needed to perform the daily operations of AIC and OPB. The assessment should be
    conducted either internally or by an independent specialist, and should identify the additional
    managerial skill sets, e.g., financial accounting background, knowledge, and expertise, required
    to strengthen the financial accounting and reporting infrastructure, and, once strengthened, to
    effectively manage the processes necessary to be conducted throughout the year.

4.	 Once the human capital needs are assessed (per recommendation 3 above), hire staff, or
    consider transferring suitable staff from other offices within Treasury to meet these immediate
    needs.

Management Response

The Deputy CFO will work with the Office of Human Resources to address a long term solution.
The budget constraints for fiscal years 2007 and 2008, and probably future years, will significantly
limit the resources available for additional staffing in a number of critical functions. To address the
immediate needs of training and developing current staff, the Department is placing top priority on
documenting standard operating procedures and preparing an information handbook for critical
functions. We will define specific roles and responsibilities and assign a backup for each critical
function. In addition, we will implement cross-training among current staff for these critical
functions. We will also explore using detailees from other offices to provide some back-up
expertise.

Additionally, during FY 2006 we performed an assessment of existing staff core competencies and
tailored each staff’s Individual Development Plans to address any areas needing improvement. We
developed comprehensive listings of core competencies for each job series within DCFO, utilizing




                                                  7

core competency materials from the Department of Defense, the Joint Financial Management
Improvement Program, the Office of Personnel Management, and our own internal knowledge of
required competencies. Each employee rated his or her knowledge of each competency, and their
supervisors independently performed the same rating. Employees and supervisors then met to
identify and discuss any differences in ratings and determine competencies that the employee needs
to enhance. Employees and their supervisors then developed Individual Development Plans tailored
to specifically address the targeted core competencies, increase special competencies, and provide
for overall professional development. Training to address targeted core competencies will receive
first priority in the DCFO’s training budget.

06-02: Financial Reporting Standards for Treasury’s Component Entities (Repeat Comment)
The Department’s consolidated financial statements are prepared in conformity with accounting
principles prescribed by the Federal Accounting Standards Advisory Board (FASAB), the
accounting standards-setting body for the Federal Government, as recognized by the AICPA in
October 1999. However, certain Department component entities prepare their financial statements
in accordance with accounting standards prescribed by the Financial Accounting Standards Board
(FASB), the private sector standards-setting body, since the FASAB has allowed entities that issued
financial statements prior to October 1999 using FASB accounting to do so. These entities include
the Bureau of Engraving and Printing (BEP), the Office of Thrift Supervision (OTS), the Exchange
Stabilization Fund (ESF), the Federal Financing Bank (FFB), and the Community Development
Financial Institutions Fund (CDFI).

The use of a combination of generally accepted accounting principles (GAAP) by the Department
and its component entities complicates the preparation of the Department’s consolidated financial
statements since additional information required for Federal GAAP reporting must be developed,
mapped and submitted to the Department’s data warehouse by component entities, and reviewed for
compliance with Federal GAAP and overall reasonableness by Department accounting
management.

Private sector GAAP does not contemplate budgetary reporting and therefore components using this
basis of accounting do not prepare Statements of Budgetary Resources (SBR) or Financing,
although these statements are an integral part of the Department’s consolidated financial statements,
and must be prepared regardless of whether the component receives appropriations from the U.S.
Government or not. Moreover, information reported in the Department’s SBR must be reconciled to
enacted amounts in the President’s Budget and disclosed in the notes to the Department’s
consolidated financial statements.

Additionally, private sector GAAP does not provide sufficient information regarding the costs of
programs and activities. The Statement of Net Cost required by Federal GAAP requires that costs
and offsetting earned revenues be presented by responsibility segments, with net costs identified for
each of the segments, in order to provide more meaningful information to evaluate the operating
results of major activities.




                                                 8

Further, inconsistencies exist in how certain costs are reported by entities using private sector
GAAP. For example, Federal GAAP requires that non-reimbursed costs paid by the Office of
Personnel Management for retirement plans be recognized by the receiving entity as an imputed
cost in order to report the full cost of operations. Since private sector GAAP does not provide
guidance for the reporting of such imputed costs, these costs are being reported inconsistently, or
not at all, by the Department’s component entities.

This matter has been reported since FY 04, and has not been resolved to date. Some progress has
been made in that two components have converted from commercial to Federal GAAP reporting,
and the Department has requested the Financial Accounting Standards Advisory Board (FASAB) to
address this situation. The continued use of private sector GAAP by certain Department component
entities decreases the usefulness of information reported by these entities for users of Federal
financial statements. In order to strengthen and standardize financial accounting and reporting
throughout the Department, all component entities should be required to prepare their financial
statements in accordance with Federal GAAP, unless statutorily required to report on a different
basis of accounting.

06-02 Recommendations

We recommend that the Department research and determine whether component reporting entities
reporting on a basis other than Federal GAAP are required to do so by statute. We further
recommend that the Department continue to work with the affected Treasury bureaus to achieve
conformance in FY 07, so that all such reporting entities within the Department prepare their
financial statements in accordance with Federal GAAP, unless statutorily required to report in
accordance with a different basis of accounting.

Management Response

The Department requires that all bureaus/reporting entities comply with the United States Standard
General Ledger (USSGL), which is used for Federal sector GAAP.              The USSGL balances
transmitted by the bureaus to the Department’s centralized database are appropriately mapped to
reflect transactions on a Federal GAAP basis in the Department’s consolidated financial statements.
No errors resulting from conversion from private sector GAAP to Federal GAAP were noted in the
Department’s FY 2006 and FY 2005 consolidated financial statements.

In April 2004, the OIG requested that FASAB consider requiring Federal GAAP for the general
purpose financial statements of Federal entities, unless there is a statutory or regulatory requirement
to report on a different basis. FASAB has included this issue as one of the four potential projects
identified in the Invitation to Comment – Technical Agenda Options document dated July 22, 2005.
Treasury and the OIG provided comments to FASAB, and ranked the Appropriate Source for
GAAP project as the second highest priority project next to the Federal Entity project.




                                                  9

In discussing this matter with component entities, one of the problems that surfaced was their belief
that the audiences for their financial statements are used to commercial-type financial statements
and would not understand statements prepared following FASAB/OMB standards. The question of
the usefulness of the component level statements needs to be addressed and resolved.

Treasury will work with the FASAB and the Office of Inspector General in addressing this issue,
and will continue to work with the affected bureaus in FY 2007 to achieve greater conformance.

06-03: The Exchange Stabilization Fund’s Budgetary Accounting Methodology (Repeat
Comment)

The Exchange Stabilization Fund (ESF or Fund) maintains a transaction-based accounting system
for the federal proprietary Standard General Ledger (SGL) accounts, but does not have a
transaction-based budgetary accounting system. Some of the ESF budgetary data reported in TIER,
the Department’s repository accounting system is misclassified or inaccurate, but has been left in
TIER to force a fit with budgetary accounting definitions. For example, undelivered orders, SGL
account 4801, has been reported in ESF’s Trial Balance in TIER as $14.1 billion since 2000.
However, the ESF does not report any undelivered orders in its SBR nor does it have any
transactions that meet the Office of Management and Budget’s (OMB) definition of undelivered
orders. As a result, ESF’s SBR is prepared manually outside of TIER, and outside of CFO Vision,
the Department’s financial reporting system that converts TIER data into its financial statements.

ESF’s reporting to the OMB for purposes of the President’s Budget is also inconsistent with ESF’s
audited financial reporting data and requires reconciliation each year. The President’s Budget
includes actual obligations and outlays inconsistent with the audited ESF SBR for the reporting
year. For example, outlays reported in the President’s Budget do not contain valuation gains and
losses on foreign currency, whereas the Department prepared SBR for ESF includes such amounts
in outlays. As a result, the Department’s budgetary financial data for ESF submitted to FACTS II
for government-wide reporting purposes is inconsistent with its SBR, Statement of Financing,
TIER, and with the information provided to OMB for the President’s Budget. In addition, the lack
of written, approved operating procedures for ESF has resulted in inconsistencies from year to year
in the methodology used in the translation of the ESF proprietary accounts to budgetary accounts.

OMB Circular No. A-11, Part IV requires nonappropriated funds, such as the ESF (as well as
appropriated funds) to be included in an agency’s combined SBR. It also requires the SBR to be
based on budget terminology, definitions, and guidance. In addition, OMB Circular No. A-127,
Section 7a, requires Federal financial management systems to “… ensure consistent information is
collected for similar transactions throughout the agency, …and ensure consistent information is
readily available and provided to internal managers at all levels within the organization.” Section
7c states further, “Reports produced by the systems that provide financial information, whether used




                                                 10 

internally or externally, shall provide financial data that can be traced directly to the SGL accounts.”
In addition, GAO’s Standards for Internal Control in the Federal Government2 states:

           Internal control and all transactions and other significant events need to be
           clearly documented, and the documentation should be readily available for
           examination. The documentation should appear in management directives,
           administrative policies, or operating manuals and may be in paper or
           electronic form.”

The Department has complied with OMB and other requirements by adopting unique budgetary
applications for ESF data, and in FY 06 requested OMB to review and agree with the Department’s
budgetary reporting adaptations that require major reconciliations with the President’s Budget, with
TIER, and with FMS FACTS II requirements for the Fund. OMB and FMS provided a solution in
FY 06 to resolve the requirement to report FBWT to meet FACTS II edits but has not yet reviewed
and agreed to the Department’s budgetary reporting adaptations. No approved model of budgetary
transactions exists for ESF that would ensure that consistent budgetary and proprietary data is
readily available that can be traced directly to the SGL accounts.

In response to prior year recommendations to request a waiver from OMB from the requirement to
provide Statements of Budgetary Resources and Financing for ESF, AIC prepared a draft waiver
request in 2005 which was submitted to OMB and the Financial Management Service (FMS). No
waivers have been granted as yet, and the AIC is still in the process of communicating with OMB
and FMS on this matter.

06-03 Recommendations

We recommend that the Acting CFO, with input from the Director of AIC, as appropriate:

1.	 Prepare written operating procedures with accompanying rationale as to why the proprietary
    accounts chosen approximate budgetary definitions.

2.	 Request approval from OMB for the definitions the Department uses to translate ESF
    proprietary accounts to budgetary line items to prepare Statements of Budgetary Resources and
    Financing, recognizing that standard federal budgetary definitions do not apply to the ESF’s
    investment portfolio fund.

3.	 Explore with OMB alternative ways of providing meaningful, accurate, and consistent data on
    ESF in the President’s Budget and how the information should be reported in the government-
    wide financial statements.



2
 U.S. Government Accountability Office, Standards for Internal Control in the Federal Government, GAO/AIMD-00
21.3.1, November, 1999.




                                                      11 

Management Response

The Department agrees with the auditor’s recommendations and will continue to work with OMB to
obtain specific guidance on providing more meaningful budgetary and FBWT reporting for ESF.
The Department will also prepare written operating procedures fully explaining the rationale
supporting those procedures, and update the procedures as necessary based on any reporting
improvements agreed to by OMB and the Department.

06-04: Financial Reporting Practices at the Department Level

Financial reporting processes and procedures at the Departmental level need improvement to enable
the timely preparation and issuance of the Department’s consolidated financial statements and the
annual Performance and Accountability Report (PAR), and to ensure proper financial management.

AIC is responsible for establishing and maintaining financial policies that guide consolidated
financial reporting throughout the Department, implementing internal controls to ensure the overall
integrity of financial data, and preparing periodic consolidated financial statements. The
Department’s Office of Strategic Planning and Performance Management (SPPM) within the Office
of Management and Budget, and the Office of Accounting and Internal Control (AIC) within the
Office of the Deputy Chief Financial Officer, are jointly responsible for the preparation of the PAR.
Under the current financial reporting structure, AIC prepares consolidated financial statements,
including footnote and supplementary data, from trial balances and other financial data submitted
by the components to AIC through the TIER system. AIC is dependent on the Treasury components
for complete, accurate, and timely submission of monthly financial data. SPPM manages the
completion of the performance sections of the PAR in conjunction with input from Treasury
components. SPPM and AIC work jointly together to produce the complete PAR. Certain quality
control procedures are conducted by both AIC and SPPM to ensure that component financial,
performance, and other data is accurate and complete for inclusion in the consolidated financial
statements/PAR; however, several quality control deficiencies and other issues were noted during
the FY 06 audit as follows:

•	 The Department prepared its first interim consolidated financial statements (to include footnote
   and supplementary data) in FY 06 based on financial data for the nine months ended June 30.
   These interim consolidated financial statements were prepared to allow for an early start on
   interim audit reviews due to significant changes in accounting and reporting requirements
   occurring in FY 06. However, preliminary reviews of these interim consolidated financial
   statements revealed errors, inconsistencies, inadequate or incomplete footnote disclosures, and
   lacked supporting documentation for certain footnote disclosures and required supplementary
   data. Preparation of interim consolidated financial statements reflected a good start by AIC
   management to begin an early review of the consolidated financial statements, but reflected
   inadequate quality control procedures. As a result, unnecessary audit time was spent on
   reviewing the interim consolidated financial statements as well as on the audit of various
   June 30 account balances. Consequently, some routine audit test work procedures typically




                                                 12 

   performed on interim consolidated financial statements were delayed until year-end, and
   extensive time was spent at year end by both AIC officials and the audit team to ensure that the
   consolidated financial statements conformed to new FY 06 accounting and reporting
   requirements.

•	 The following are examples of the significant non-routine accounting and reporting matters that
   had not been completed or addressed timely by AIC:
   - The Department did not finalize its preparation of the detailed footnote disclosure required
       under Statement of Federal Financial Accounting Standard (SFFAS) No. 27, Identifying
       and Reporting Earmarked Funds, for FY 06 reporting until late October;

   -   After meeting with all responsible parties to discuss the effects on the financial statements
       and footnotes, the Department accepted accounting and reporting changes resulting in a
       reclassification of certain cash and cash equivalents account balances to investments that
       had been approved by OMB as part of the ongoing effort to address unique ESF reporting
       issues. However, a subsequent review by the audit team of the approved accounting and
       reporting changes, and upon agreement with responsible parties, led to the conclusion that
       the reclassification should in fact not have been made, mainly because the reclassification
       did not meet the criteria for change from cash and cash equivalents to that of an investment;
       and

   -   Various accounting and reporting requirements stipulated by OMB Circular A-136,
       Financial Reporting Requirements, applicable to FY 06 had not been addressed and
       included until the final draft of the year-end consolidated financial statements. For example,
       changes to footnote disclosure requirements related to the Department’s Reconciliation to
       the President’s Budget to include a reconciliation of Obligations Incurred had not been
       addressed until it was identified as a requirement during the audit.

•	 Adequate reviews were not performed on documentation provided to support audit requests. For
   example, the initial documentation provided to support the Department’s Reconciliation to the
   President’s Budget (PB) did not fully support the reconciling amounts reported in the PB
   reconciliation even though the documentation had been reviewed by AIC officials prior to
   submission to auditors. Although differences identified were fully explained and supported, the
   initial supporting documentation provided was not comprehensive enough to eliminate the level
   of discussions needed to understand the Department’s unique budget transactions and how they
   contribute to the PB reconciliation.

•	 Year end variance analysis explanations provided in some instances were vague and were not
   properly reviewed and/or followed up. Consequently, significant time was spent by the audit
   team in discussions with component audit teams as well as component management to clearly
   establish the rationale for the variances identified as necessary. Although the Department
   requires components to provide variance explanations on a quarterly basis, the explanations
   provided at year end are not adequately reviewed or explanations followed up in a timely
   manner.




                                                13 

•	 Procedures followed by responsible AIC officials in the accounting and reporting of various
   unique transactions, such as the reporting of the U.S. Mint’s Seigniorage in the Department’s
   consolidated financial statements, were not fully documented.

•	 The year-end consolidated financial statements as well as certain PAR sections reflected a lack
   of adequate review by responsible officials within AIC and SPPM prior to submission to the
   auditors. Further, comments provided by the auditor and OIG on the initial consolidated
   financial statements and draft PAR were not reviewed by a responsible official within AIC or
   SPPM prior to submission of the revised consolidated financial statements and drafts of the FY
   06 PAR for audit review, causing the same errors to be identified repeatedly. In addition, later
   versions of the FY 06 PAR continued to contain various errors that had previously been
   corrected due to version control problems.
The consolidated financial statements issues identified above occurred mainly due to the fact that
existing AIC senior staff had excessive work-loads. Therefore, insufficient time was available to be
devoted to supervisory reviews and other financial management activities. This situation resulted in
substantial reliance being placed on the annual audit process to identify errors and omissions in the
consolidated financial statements and PAR.
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish
internal controls according to standards prescribed by the Comptroller General and specified in the
GAO’s Standards for Internal Control in the Federal Government (Standards). The GAO defines
“internal control” as an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved: effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws and regulations.
The GAO Standards identify the control environment as one of the five key elements of control,
which emphasizes the importance of control conscientiousness in management’s operating
philosophy and commitment to internal control. These standards cover controls such as human
capital practices, supervisory reviews, and segregation of duties, policies, procedures, and
monitoring.

06-04 Recommendations

We recommend that the Acting CFO and Acting ASM, with input from the Directors of AIC,
SPPM and OPB, as appropriate:

1.	 Recruit experienced accounting staff necessary to assist in the performance of day-to-day
    activities of AIC (see finding 06-01, Succession Planning, for additional recommendations).

2.	 Establish new or improve existing policies and procedures to ensure that:

    i.	 Interim consolidated financial statements are prepared to include all disclosures, including
        the adoption of new accounting standards and restatements (if any) of prior year
        consolidated financial statements, and are addressed early each fiscal year, no later than the




                                                 14 

        third quarter, to give management and the auditors adequate time to review changes before
        year-end;
    ii.	 Documentation exists to support all new and/or unique accounting and reporting
         requirements as well as non-routine or complex accounting and reporting matters. This
         documentation should include a review of the documentation by responsible officials within
         AIC. For example, any new financial statement footnote disclosures to be developed should
         include a policy memo, financial statement footnote disclosure format as well as evidence
         of review by responsible officials within AIC of both the policy as well as the format to be
         followed.

    iii. Adequate reviews are 	conducted by senior AIC officials on all audit-requested
         documentation to ensure that the documents and information being provided are accurate
         and complete.

    iv. Quality control reviews are performed on interim and consolidated financial statements as
        well as the respective sections of the PAR by responsible officials prior to submission to
        auditors to ensure that all errors and inconsistencies are corrected prior to submission to the
        auditors.

Management Response

As mentioned in our response to finding 06-01, succession planning, budget constraints for fiscal
years 2007 and 2008 will likely prohibit the opportunity for recruiting additional experienced
accounting staff. However, the Department will take actions to develop policies and procedures to
ensure full disclosure in interim financial statements. Internal guidance will be developed to ensure
new reporting requirements and audit-requested documentation will receive proper management
review prior to being provided to the auditors, and likewise to ensure that all requested
documentation is provided in accordance with agreed-upon schedules.

During FY 2007, the Department will update its papers documenting unique accounting and
reporting requirements and unusual or complex accounting/reporting matters. We will also expand
our formal review procedures to ensure that all components of the PAR are reviewed by responsible
officials prior to submission to the auditors.

06-05: OMB Circular A-123, Management’s Responsibility for Internal Control

OMB Circular No. A-123 Revised, Management Accountability and Control (A-123), issued
December 2004, and effective for implementation in FY 06, requires agencies to (1) develop and
implement management controls; (2) assess the adequacy of management controls; (3) identify
needed improvements; (4) take corresponding corrective actions; and (5) report annually on
management controls (commonly known as management’s Federal Manager’s Financial Integrity
Act (FMFIA) report). A-123 provides the guidance for agencies to implement the FMFIA and
applies to all Federal agencies. Appendix A, Internal Control over Financial Reporting




                                                  15 

Implementation Guide from A-123 requires management’s evaluation of the internal controls over
financial reporting (ICOFR), and separate assurance statements on the operating effectiveness of the
ICOFR by 24 CFO Act agencies. Agencies are to use the Standards for Internal Control in the
Federal Government (the Green Book) to evaluate the three objectives of internal control which are
to ensure (1) the effectiveness and efficiency of operations; (2) reliability of financial reporting; (3)
compliance with applicable laws and regulations.

During FY 06, the Department significantly enhanced its FMFIA assessment policies and
procedures to be conducted by its components. The AIC, in response to A-123 Appendix A,
prepared the Department’s Methodology and Implementation Plan, which provided a clear,
organized implementation strategy with well-defined documentation processes and requirements for
Treasury components. Components used this guidance to assess the adequacy of controls over
selected financial reporting processes identified as key by the Department.
While we noted that the Department had undertaken the steps needed to meet the minimum
threshold for general compliance with A-123 requirements, further improvements are needed in
various areas as identified during our limited review of the A-123 work undertaken by the
Department and its components.

Implementation Procedures

•	 Components are responsible for conducting the A-123 related work and to report on
   management controls once AIC has approved the transaction testing plans for the respective
   component. There is limited involvement by AIC staff once testing plans are approved, other
   than the review conducted on the interim and final FMFIA and A-123 assurance statements
   provided by the respective components in support of the overall Departmental level assurance.
   Consequently, there is no centralized review of any of the work done by components to assess
   whether the testing plans and other A-123 Methodology and Implementation Plan requirements
   have been followed.

    A centralized review will help in identifying issues early and assist the AIC in evaluating
    whether A-123 assessments are based on verifiable results.

•	 Several instances were noted whereby A-123 required steps for the components/offices which
   we selected for limited review were not conducted as required, or were omitted in their entirety
   due to various reasons, or the required steps were conducted, but were not appropriately
   documented by the respective components/offices:

    -   Three of six components/offices did not develop test plans and related results in accordance
        with the guidelines provided by the Department’s Methodology and Implementation Plan.
        For example, details of the scope of the test, expected results, and results of testing were not
        documented in accordance with the required format. Therefore, it was unclear without
        significant explanation from component entity staff, what the components’ processes and
        results were.




                                                   16 

   -   One of six components/offices did not have its test plans approved in accordance with the
       guidelines provided by the Department’s Methodology and Implementation Plan.

   -   Four of six components/offices did not conduct tests over the controls to compile,
       consolidate, assemble, and distribute their financial statements and other financial reports.
       The Department’s Methodology and Implementation Plan requires components to
       specifically address (1) elimination procedures and controls in place to ensure that financial
       statement preparation is controlled and footnotes and other supplemental information is
       complete and accurate, and (2) TIER transmissions to the Department are complete and
       accurate. Although components have controls in place to compile, consolidate, assemble,
       and distribute their financial statements and other financial reports, the testing of these
       controls had not been formally documented as required by the Department’s Methodology
       and Implementation Plan.

   -   Two of six components/offices provided no evidence of review of the status of corrective
       actions developed in response to audits that directly affect financial reporting, except for a
       statement that they conducted the review. According to the Department’s Methodology and
       Implementation Plan, each component is to review the status of corrective actions
       developed in response to audits that directly affect financial reporting. The review should
       consider whether corrective actions are on schedule, their degree of impact on the controls
       over financial reporting, and the impact of corrective actions planned or taken, to the total
       financial reporting control environment. Bureaus and offices are to document the
       completion of these actions as part of the total assessment methodology.

   -   Three of six components/offices provided no evidence of review of testing of compliance
       with governing regulations. According to the Department’s Methodology and
       Implementation Plan, each component entity is to review their compliance with governing
       regulations, as necessary. Some components made references to prior year external audit
       results on compliance with laws and regulations, instead of actually identifying and testing
       the laws and regulations that apply.

   -   Five of six components/offices did not test Information Technology (IT)-related controls.
       We were informed by AIC that review and testing of IT controls were not required to be
       conducted since Treasury management expected to rely on the procedures already in place
       by components to evaluate general and application systems and related controls to comply
       with the Federal Financial Management Improvement Act of 1996, and the Federal
       Information Security Management Act of 2002.

The above issues revealed a need for improvement by components in the conduct of A-123 testing
and related documentation.




                                                17 

Transactions Testing

•	 For one of six components/offices tested, the component:

    -   Performed testing over summary transactions in the general ledger and did not trace
        transactions to source documents or systems, which are maintained by other entities or
        related offices.

    -   Did not test material components of expense and balance sheet line items, and also did not
        test certain material balances even though material transaction activity had occurred during
        the course of the year. This occurred because the transactions and balances to be tested are
        determined by AIC at the Departmental level based on pre-set materiality thresholds.

•	 For three of six components/offices of test work documentation reviewed documentation of the
   source of the population and the sample selection processes followed were insufficient.

Reporting

•	 A number of the components/offices did not follow the A-123 assurance assessment format
   provided by the Department, and there was no follow-up by the AIC to require that the format
   was followed. As a result, key phrases needed to assert assurance were not included in the
   assurance statement.

•	 The Department did not consider certain material weaknesses in internal control over financial
   reporting as weaknesses affecting the overall assurance level at the Departmental level.

   The Secretary’s Letter of Assurance for FY 06 reports that it is only the IRS’ revenue
   accounting system weakness that affected Treasury’s overall assurance level for internal
   controls over financial reporting. Other material weaknesses identified such as reducing
   overclaims in the Earned Income Tax Credit program, and improving system security controls
   cited in the FY 06 assurance letter also meet the definition of a weakness in internal control over
   financial reporting and as such, should also have been included as weaknesses affecting the
   overall assurance level for internal controls over financial reporting.

FMFIA requires Federal agencies to establish internal accounting and administrative controls to:
(1) ensure that obligations and costs comply with applicable law; (2) assets are safeguarded against
waste, loss, unauthorized use or misappropriation; and (3) revenues and expenditures are properly
recorded and accounted for. Further, the Act directs the head of each agency to evaluate such
controls annually and to submit to Congress and the President either a statement that the controls
are adequate or a report on any weaknesses in such controls with a schedule for corrective
measures. The issuance of A-123 provided further guidance to agency management for evaluation
of the internal controls over financial reporting in support of its annual FMFIA assurance statement.




                                                 18 

The recurrence of the issues discussed above may ultimately result in A-123 evaluations by
components that are not supported by verifiable results since appropriate procedures were not
documented as required or not conducted.

06-05 Recommendations

We recommend that the Acting CFO, with input from the Director of AIC, as appropriate:

1.	 Designate a responsible official within AIC to review the A-123 work being conducted by
    components to ensure that the Department’s A-123 guidance is complied with.

2.	 Consider the use of a checklist to facilitate review of key requirements when reviewing A-123
    documentation provided by components, and specifically include reviews of the areas needing
    improvement as discussed above.

3.	 Communicate the deficiencies identified during the FY 06 A-123 testing, as discussed above, to
    all components, and conduct follow-up to ensure that these deficiencies have been addressed, as
    necessary, during FY 07 A-123 testing.

4.	 Develop and implement procedures to require testing of the IT systems and related controls
    supporting the financial reporting processes, as well as applicable laws and regulations.

5.	 Revise existing procedures to identify and include control testing of all significant transactions,
    including those that are either generated by other entities or resident in related offices (for
    example, transactions processed for Treasury bureaus by the Federal Reserve Banks).

6.	 Develop an interim assurance letter for purposes of early review for concurrence on conclusions
    by all responsible officials so as to eliminate any future reporting deficiencies.

Management Response

AIC has a responsible official to review the A-123 work conducted by Treasury’s components to
ensure that the Department’s A-123 guidance is complied with. All test plans submitted by the
material components for FY 2006 were reviewed using the required outline prescribed in the A-123
Methodology and Implementation Plan. The level of compliance and final results of testing, which
was prescribed to be conducted at the transaction level, was communicated to the AIC in the same
manner as the results of the annual assurance statement process for FMFIA and FFMIA (e.g., as a
draft and as a final assurance statement).

The AIC simply does not have on-board resources sufficient to review all of the work that was
performed in the bureau and offices. The A-123 testing performed in FY 2006 spanned 12 bureaus
and offices that utilized approximately 45 in-house resources and 12 contract resources to conduct
and document the testing, while the AIC has two resources to review all of their collective efforts.
Further, these two AIC resources cannot be 100% dedicated to A-123 due to other demands and




                                                  19 

expectations placed on the AIC. Thus, primary responsibility must be placed upon the testing
bureaus and offices to complete the testing and assessment for A-123, Appendix A, in accordance
with the guidance issued. However, we will explore using existing accounting branch staff to assist
the internal control staff in reviewing bureau work on a test basis.

During the update to the A-123, Appendix A guidance for FY 2007, more explicit reporting and
documentation requirements have been placed upon the bureaus and offices, and specific IT-
controls have been identified and added to the Treasury Catalogue of Risks and Controls.

We will review our existing procedures with the goal of identifying significant transactions that are
generated or resident in other offices so that we can consider additional testing that may be
necessary and identify resources required to perform any additional testing in FY 2008.

We currently receive interim assurance information from the bureaus on the financial reporting
aspect of Circular A-123 as of June 30, and receive complete draft assurance statements in early
September. We will continue to follow this practice and enhance it by summarizing the proposed
A-123 Appendix A reporting for review and discussion well before fiscal year end.

06-06: Intragovernmental Transactions and Activities

The Department conducts business with other Federal agencies resulting in intragovernmental
receivables, payables, and the reporting of revenues and expenses from intragovernmental
transactions. Federal accounting and reporting regulations require Federal agencies to routinely
identify and reconcile intragovernmental balances and transactions with trading partners. These
procedures help ensure that intragovernmental balances properly eliminate in the government-wide
consolidated financial statements. AIC is responsible for the issuance of policy and procedures,
coordinating the reconciliation of intragovernmental transactions at the Department level in
conjunction with Treasury components. While the Department conducted the work required on
intragovernmental transactions and balances differences with partner agencies in compliance with
the requirements of the Treasury Federal Intragovernmental Transactions Accounting Policies
Guide, dated August 18, 2006 (TFITAPG) to the extent possible, we believe that the Department
can further improve the resolution of any remaining unresolved differences by meeting with
responsible officials from the partner agency rather than through e-mail communications.

The TFITAPG states that OMB Circular No. A-136, requires Federal CFO Act and non-CFO Act
entities identified in the Treasury Financial Manual 2006, Vol. I, Part 2-Chapter 4700, Agency
Reporting Requirements for the Financial Report of the United States Government, perform
quarterly reconciliations of intragovernmental activity/balances and resolve differences as
necessary.
Treasury Financial Manual Bulletin No. 2007-03, Intragovernmental Business Rules, dated
November 15, 2006, and effective for FY 07, provides further guidance to Federal agencies for
standardizing the processing and recording of intragovernmental activities, and also provides
guidance on resolving intragovernmental disputes and major differences.




                                                 20 

Reconciling trading partner activity and balances and resolving unknown or contentious differences
at least quarterly is necessary to identify the reasons for any material out-of-balance conditions
between Federal entities on a timely basis.

06-06 Recommendation

We recommend that the Acting CFO, with input from the Director of AIC, as appropriate, revise
existing resolution procedures both at the Departmental and component levels to require meeting
directly with responsible officials from the partner agency for any intragovernmental differences
that are considered unknown and/or contentious so that such differences are resolved in a timely
fashion. If necessary, OMB officials should be requested to be involved as a mediator.

Management Response

AIC is drafting the Department’s intragovernmental transaction procedures to emphasize
compliance with FMS Business Rules, using Treasury intragovernmental elimination reports for
bureau accounting and monitoring, establishing and updating executive agency intragovernmental
transaction points of contact, and resolving intragovernmental transaction differences via periodic
meetings with partner agencies. If necessary, we will seek OMB mediation of differences we are
unable to resolve with other agencies.

06-07: Performance Measures

Agencies report on their annual performance in their PAR utilizing performance measures. OMB
Circular No. A-136 requires Federal agencies to discuss their key performance measures in the
Management’s Discussion and Analysis (MD&A) section of their PAR.

Treasury issues an annual report titled “Full Report of Treasury’s FY 06 Performance Measures by
Focus and Strategic Goal” (Report) which is attached as an Appendix to the PAR. The
Department’s SPPM within the OPB is responsible for the preparation of the Department’s annual
report on performance measures as well as the monitoring of component-submitted performance
information. The components submit performance information to Treasury’s Performance
Reporting System (PRS) that tracks components’ progress in achieving their performance
objectives. Specifically, the system primarily tracks progress against current year performance
targets and prior year’s actual performance levels. Reliability of the performance information in
PRS is monitored at the component level where internal performance tracking systems are
maintained. Each component has an assigned official that is responsible for: (1) ensuring that the
information for their assigned component was entered into the PRS; and (2) that the information
that is entered into the system can be validated. In addition, SPPM staff (or the component) ensures
that the information submitted relating to the performance measures matches/relates to the original
budget submission.




                                                21 

While SPPM’s process for monitoring performance measures appears appropriate, certain
improvements are needed with respect to the processes reviewed, and the documentation maintained
as evidence of the reviews conducted. For example, we were unable to determine whether the
quarterly monitoring procedures were conducted as described by SPPM staff as there was no
documentation retained to evidence the work that was conducted.

GAO’s Standards for Internal Control in the Federal Government requires that management clearly
document internal control and all transactions and other significant events, and ensure that the
documentation is readily available for examination. The documentation should appear in
management directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and maintained.

06-07 Recommendations

We recommend that the Acting ASM, with input from the Directors of SPPM and OPB, as
appropriate:

1. 	 Develop procedures to match performance measures reported in the PAR to that in the PRS and
     inquire into the reasons for any discrepancies, document explanations, and retain supporting
     documentation as necessary.

2.	 Select a sample of performance measures from each component, and request appropriate
    documentation supporting the existence and completeness of these performance measures.

3.	 Require retention of all documentation used in the monitoring of the performance measures to
    serve as evidence of review, and for reference purposes, should questions arise at a later date.

Management Response

Although not all measures used in the PAR have to be in the Performance Reporting System, such
as enforcement revenue, the Department agrees with the recommendations and will develop
appropriate actions to address each recommendation.

06-08: Deferred Maintenance

SFFAS No. 6, Accounting for Property, Plant and Equipment, describes deferred maintenance as
maintenance (needed to return each major class of asset to its acceptable operating condition) that
was not performed when it should have been or was scheduled to be, and which is put off or
delayed for a future period. SFFAS No. 14, Amendments to Deferred Maintenance Reporting,
requires that deferred maintenance information be included as required supplementary information
in the consolidated financial statements.




                                                22 

The AIC is responsible for accumulating and reporting deferred maintenance information on a
Department-wide basis. However, the deferred maintenance information that was provided to us to
support the information reported as Required Supplementary Information in the Department’s FY
06 consolidated financial statements was inadequate due to the lack of a comprehensive policy at
the Department level.

Lack of a process to identify deferred maintenance may allow assets to deteriorate at a rate faster
than if they were maintained well and not allow adequate funds to be identified in the budget
process for the necessary maintenance or replacement of assets, which will ultimately adversely
affect Treasury’s ability to accomplish the mission for these assets. In addition, this situation may
also cause inadequate or incomplete information to be disclosed in the Department’s consolidated
financial statements.

06-08 Recommendation

We recommend that the Acting CFO, with input from the Director of AIC, as appropriate, develop
and implement policies and procedures for the identification and monitoring of deferred
maintenance on a Department-wide basis. This policy and its implementation should be coordinated
with Treasury components.

Management Response

The Office of Accounting and Internal Control, coordinating with the Office of Asset Management,
will work with the bureaus to develop Departmental policies and procedures for the identification
and monitoring of deferred maintenance. These policies and procedures will be implemented
during FY 2007 to ensure complete documentation for the required deferred maintenance
disclosures.

06-09: Backup Tapes for the TIER System and CFO Vision Production Servers (Repeat
       Comment)

The Treasury Information Executive Repository (TIER) and the CFO Vision applications, including
the supporting information technology infrastructures for both systems, were recently moved to the
Qwest Cyber Center in Sterling, VA. Within the Cyber Center, the supporting infrastructure for
each of these applications is housed in a four-sided gated off area, known as the Security Extranet
Gateway (SEG) cage. This area is physically secure and accessible only by authorized individuals.

The Qwest Cyber Center was noted as having adequate controls in place to ensure the timely and
consistent archiving of critical data related to the TIER and CFO Vision applications, including
daily and weekly full and incremental backups of data. In order to ensure that backup media is
physically and environmentally protected, including maintaining backup media at a location that is
geographically separated from the primary site, Qwest has recently entered into contract with the
Iron Mountain Corporation, an organization that provides information and record management, to




                                                 23 

provide long-term offsite storage for backup media for all of their managed systems, including the
TIER and CFO Vision application.

On a regular basis, Iron Mountain arrives at Qwest to rotate backup media related to TIER and CFO
Vision on and off site. However, we noted onsite data back-up tapes for the TIER and CFO Vision
financial systems are not stored in an environmentally secure and stable location within the Qwest
Cyber Center prior to being rotated offsite to Iron Mountain. If data back-up tapes are not being
stored in an environmentally secure and stable environment during all stages of the rotation cycle,
there is a risk that the most current data will not be recovered in the event of a disaster.

The National Institute of Standards and Technology (NIST) Special Publication 800-14, Generally
Accepted Principles and Practices for Security Information Technology, recommends that back-up
tapes should be stored security and that measures should be established to physically and
environmentally protect the archives data.

06-09 Recommendation

We recommend that the Acting CFO, with input from the Director of the Office of Financial
Systems Integration (FSI) instruct the Qwest Cyber Center to store TIER and CFO Vision data
back-up tapes in an environmentally secure and stable environment prior to being rotated offsite for
long-term storage with Iron Mountain.

Management Response

A fireproof storage box was purchased and installed at the Qwest Cyber Center in Sterling, VA.
Effective December 19, 2006, Qwest began storing backup tapes for TIER and CFO Vision in this
storage box, while waiting for pickup by the Iron Mountain Corporation. We think we have
effectively addressed this recommendation.

06-10: 	Continuity of Operations Plan and Disaster Recovery Procedures for TIER and CFO
        Vision (Repeat Comment)

In FY 05, it was noted that a Continuity of Operations Plan (COOP) and a Disaster Recover Plan
(DRP) for the TIER and CFO Vision applications had not been implemented. Specifically, the
Department was unable to fund the development of a COOP or DRP for the TIER and CFO Vision
applications during the fiscal year due to monetary constrains.

In FY 06, the Department established a Contingency Plan for the IT environment at the
Department’s Headquarters, including the DO LAN. Additionally, the Department implemented
the Assistant Secretary for Management (ASM)/COOP, which provided guidance, requirements,
and procedures for the continuance of the Department’s essential functions in the event of an
emergency. While both the TIER and CFO Vision applications have been identified in this




                                                24 

document, it does not identify or specify IT specific recovery requirements or procedures for the
infrastructure that support each system.

In addition, TIER and the CFO Vision applications, including their supporting information
technology infrastructures, were recently moved to the Qwest Cyber Center in Sterling, VA for
offsite management. The Qwest Cyber Center has taken several steps to ensure the physical and
environmental security, as well as the continuance of operations, for the systems Qwest has been
contracted to manage. However, neither Qwest, nor the Department, have implemented a DRP at
the Cyber Center for the TIER and CFO Vision applications.

Should a disaster occur without a documented DRP for TIER and CFO Vision, Treasury’s Office of
the DCFO’s ability to restore operations and continue its business operations related to these
systems may be significantly delayed.

NIST Special Publication 800-34, Contingency Planning Guide for Information Technology
Systems, states that “Information technology (IT) and automated information systems are vital
elements in most business processes. Because these IT resources are so essential to an
organization’s success, it is critical that the services provided by these systems are able to operate
effectively without excessive interruption. Contingency planning supports this requirement by
establishing thorough plans and procedures and technical measures that can enable a system to be
recovered quickly and effectively following a service disruption or disaster. NIST Special
Publication 800-34 also states that “IT systems are vulnerable to a variety of disruptions, ranging
from mild (e.g., short-term power outage, disk drive failure) to severe (e.g., equipment destruction,
fire). Many vulnerabilities may be minimized or eliminated through technical, management, or
operational solutions as part of the organization’s risk management effort; however, it is virtually
impossible to completely eliminate all risks. Contingency planning is designed to mitigate the risk
of system and service unavailability by focusing effective and efficient recovery solutions.”

NIST Special Publication 800-12, An Introduction to Computer Security: The NIST Handbook
(Chapter 11) guide states that “Contingency planning directly supports an organization’s goal of
continued operations. Organizations practice contingency planning because it makes good business
sense. To avert potential contingencies and disasters or minimize the damage they cause
organizations can take steps early to control the event. Generally called contingency planning, this
activity is closely related to incident handling, which primarily addresses malicious technical threats
such as hackers and viruses. Contingency planning involves more than planning for a move offsite
after a disaster destroys a data center. It also addresses how to keep an organization’s critical
functions operating in the event of disruptions, both large and small. This broader perspective on
contingency planning is based on the distribution of computer support throughout an organization.

OMB Circular No. A-130, Security of Federal Automated Information Systems, Appendix III (A
130) requires that a contingency plan be developed, documented, and tested to assure that users of
the system can continue to perform essential functions in the event the information technology
support for their application is interrupted. The plan should also be consistent with the agency-wide




                                                  25 

DRP. A-130 further requires that agencies establish policies and assign responsibilities to assure
that appropriate contingency plans are developed and maintained by end users of information
technology applications. The intent of such plans is to assure that users continue to perform
essential functions in the event their information technology support is interrupted. Such plans
should be consistent with disaster recovery and continuity of operations plans maintained by the
installation at which the application is processed.

06-10 Recommendation

We recommend that the Acting CFO, with input from the Director of FSI instruct the Qwest Cyber
Center, to develop a DRP for the TIER and CFO Vision financial systems in accordance with the
guidance outlined in NIST Special Publication 800-34.

Management Response

The OCIO strategic plan was to leverage the hosting services requirements of the Treasury
Communication Enterprise (TCE) procurement to obtain both primary and backup hosting site
services. On December 21, 2006, the TCE procurement was cancelled.

The cancellation will result in Treasury adopting the General Service Administration NETWORX
Contracts which includes hosting. Since GSA is currently scheduled to award these contracts in the
third quarter of FY 2007, specific Treasury hosting plans will be framed in the fourth quarter of FY
2007. It is envisioned a strategic COOP/DR plan will be drafted in the third quarter with a budget
estimate for the hosting services in fourth quarter.

Until the final resolution and implementation of the GSA NETWORX contract at Treasury, the
Department will evaluate interim disaster recovery solutions for the FARS applications, including
TIER and CFO Vision.

06-11: Segregation of Duties

TIER was implemented as a result of the OMB’s request for high-risk agencies to create a
repository for standardized data. TIER is an Oracle database management system and a system of
record where individual Treasury components submit monthly financial data and serves as a
repository for this information. Once data is received from a component, TIER runs a series of tests
against it to ensure that the data is valid. It checks for such things as appropriate SGL account and
Budget Object Codes, as well as ensuring that no letters are entered in a data field where numbers
are required. Once these validations are complete, the data is sent to the repository area within
TIER. In 1995, the application was expanded to include all of Treasury components for the purpose
of producing the Department’s consolidated financial statements. In March 2002, TIER was web-
enabled for faster and easier access by the bureaus.




                                                 26 

TIER was developed, and is currently being maintained by Aspex, Inc., a contractor. During
fieldwork, it was noted that systems administration duties in the TIER system have not been
properly segregated between Treasury employees and the Aspex, Inc. contractors. Specifically,
four Aspex, Inc. contractors with application developer responsibilities have also been granted
TIER production system administration rights. We noted that, in addition to these four individuals,
there are currently three (3) full-time Treasury employees with this level of access. The four
contractors were assigned this level of access as a back-up in the event that the three primary
administrators are not available.

NIST Special Publication 800-53, Recommended Controls for Federal Information Systems states
that “The organization establishes appropriate divisions of responsibility and separates duties as
needed to eliminate conflicts of interest in the responsibilities and duties of individuals. There is
access control software on the information system that prevents users from having all of the
necessary authority or information access to perform fraudulent activity without collusion.
Examples of separation of duties include: (i) mission functions and distinct information system
support functions are divided among different individuals/roles; (ii) different individuals perform
information system support functions (e.g., system management, systems programming, quality
assurance/testing, configuration management, and network security); and (iii) security.

NIST Special Publication 800-12, Introduction to Computer Security, states that segregation of
duties is the process by which users’ roles and responsibilities are divided so that a single individual
cannot subvert a critical process. NIST Special Publication 800-12 also states that users should
only be granted access to functions necessary to accomplish their assigned responsibilities, thereby
helping to maintain the principle of least privilege.

By allowing multiple individuals to create, modify, or delete TIER accounts, there is an increased
risk that these individuals could cause accidental or intentional harm that could threaten the
integrity of TIER data.

06-11 Recommendations

We recommend that the Acting CFO, with input from the Director of FSI either:

1. 	 Remove the TIER production system administration rights access from the four (4) application
     developers and/or reassign the duties to individuals without application development roles; or

2. 	In the event these roles are not reassigned (as recommended in (1) above), implement a
    monitoring mechanism to ensure these roles are not used in an inappropriate manner.

Management Response

Effective July 15, 2006, TIER developers no longer have TIER production systems administration
rights. This responsibility resides with three Treasury employees in the Office of Financial Systems




                                                  27 

Integration. To provide contingency back-up, TIER systems administration rights were granted to
an InfoPro contractor, who does not have access to the TIER application for
development/maintenance purposes.

In addition, the Department will develop a control report to record any administrative changes to
TIER for subsequent review by Treasury management.

As a result of the above, we have determined the requested correction actions have already been
completed.

06-12: User Account Passwords

Logical access controls implemented within the TIER application were reviewed to determine
compliance with Treasury-specific IT policy and Federal government guidance. As a result of our
review we noted that Aspex, Inc., the Application Systems Support Contractors used by DCFO to
implement and manage the TIER application, was not made aware of access controls requirements
in the Treasury Information Technology Security Program TD P 85-01 Volume 1 policies (TD P
85-01) when developing the application. Specifically, we noted two access controls were not
properly implemented in the TIER application based on the guidance outlined in TD P 85-01
Volume 1 as follows.

•	 Currently, TIER user account passwords are set to expire after 180 days. Should a user account
   password remain unchanged for a long period of time, there is increased risk that the user
   account could become compromised by an individual with malicious intent. Depending on the
   level of access assigned to a compromised account, this issue could potentially lead to
   alterations in the functionality of the application or the data contained within.

•	 A user session timeout has not been implemented in TIER. Allowing user sessions in TIER to
   remain active for lengthy periods of time creates the risk of malicious individuals hijacking user
   sessions and potentially altering the integrity of the data within the system.

During the course of the audit, this issue was brought to the attention of Treasury DCFO
management. Corrective actions were undertaken by establishing a 90-day password expiration on
all TIER user accounts. Evidence was provided to us to verify the implementation of this new
configuration.

TD P 85-01 Volume 1 Policy Part 1, Sensitive Systems states that “Bureaus shall ensure that
passwords are changed at least every 90 days.”

NIST Special Publication 800-53, Recommended Controls for Federal Information Systems states
that “For password-based authentication, the information system: (i) protects passwords from
unauthorized disclosure and modification when stored and transmitted; (ii) prohibits passwords




                                                 28 

from being displayed when entered; (iii) enforces password minimum and maximum lifetime
restrictions; and (iv) prohibits password reuse for a specified number of generations.”
TD P 85-01 Volume 1 Policy Part 1, Sensitive Systems states that “Bureaus shall implement and
enforce threshold limits for the amount of time a session is inactive before the session timeout
feature is invoked.”

NIST Special Publication 800-53 also states that “The information system also activates session
lock mechanisms automatically after a specified period of inactivity defined by the organization. A
session lock is not a substitute for logging out of the information system.”

06-12 Recommendation

We recommend that the Acting CFO, with input from the Director of FSI require the addition of a
functionality to the TIER application that will automatically invoke a session timeout after an
extended period of time as required by TD P 85-01.

Management Response

As part of an upcoming system upgrade to TIER, the application will be modified to invoke a
timeout after the system is idled for an extended period of time. These requirements will be
consistent with Federal and Treasury policies and procedures.

06-13: User Accounts

The Departmental Offices Local Area Network Operational and Technical Controls manual is not
being completely adhered to when initiating the removal of a user account from the Departmental
Offices (DO) Local Area Network (LAN) following an employee termination. Specifically, of the
twenty (20) terminated full-time employees and contractors selected for review, the user account
belonging to one (1) individual, who was terminated on July 21, 2006, was still active on the DO
LAN as of September 1, 2006. When the employee left Treasury, an entry was initiated in the
Employee Entry Exit (EEE) system; however, this entry was not saved and later followed up on
when the individual left the premises. As a result, the user account was never disabled or deleted.

During the course of the audit, this issue was brought to the attention of FSI management.
Corrective actions were undertaken by disabling this user account on the DO-LAN. Information
was provided to us to verify the disabling of this account.

The Departmental Offices’ Local Area Network Operational and Technical Controls Manual
outlines procedures to be followed by the Help desk for the disabling of all user accounts on DO
owned system, including the DO LAN. These procedures state that “terminating a user account is
an automated process via the Employee, Entrance and Exit (Triple EEE) program. The program
automatically generates a ticket to disable any pending invalid user accounts.”




                                                29 

NIST Special Publication 800-12, An Introduction to Computer Security: The NIST Handbook
states that “From time to time, it is necessary to review user account management on a system.
Within the area of user access issues, such reviews may examine the levels of access each
individual has, conformity with the concept of least privilege, whether all accounts are still active,
whether management authorizations are up-to-date, whether required training has been completed
and so forth.”

A-130 requires Federal agencies to incorporate personnel-related security controls to ensure the
screening of individuals who are authorized to bypass significant technical and operational security
controls of the system commensurate with the risk and magnitude of harm they could cause. This is
extremely important when employees leave an organization, as they may be in a position to cause
severe harm to the organization’s systems after they leave if their system access is not promptly
terminated. The Circular requires that agencies ensure that information is protected commensurate
with the risk and magnitude of the harm that would result from the loss, misuse, or unauthorized
access to or modification of such information (least privilege).

By not having an efficient mechanism by which the DO-LAN manager is made aware of terminated
employees, the Department’s data processing environment could be significantly impacted by a
terminated employee that maintains unauthorized access.

Furthermore, should a separated employee’s DO-LAN user account not be timely removed, the
separated employee or another person with malicious intent and knowledge of this active user
account could use this account to alter the integrity of the system.

06-13 Recommendation

We recommend that the Acting CFO, with input from the Director of FSI continue to ensure that
procedures established for the timely removal of user accounts belonging to former employees and
contractors are followed.

Management Response

Strengthening the management of system user accounts is being resolved by additional near term
and long term business process improvements. Tools to assist in this function being developed
include:

    1.	     Electronic Notification: The Departmental Office (DO) Employee Entry Exit (EEE)
            system has a feature which provides email notification to key DO system administrators
            that LAN Access Accounts for just (or in-process) separated Federal or contractor
            personnel are to be de-activated. Such an email notification will be provided to the
            DCFO office.




                                                 30 

2.	   End User Manager Re-certification: On at least an annual basis, the DCFO system
      administrator will complete a client account recertification process. The process entails
      forwarding to client organization managers a list of those client personnel needing
      system access privileges. The manager shall validate that organizations current
      personnel still needing access, and annotating those who through role change or
      reassignment no longer merit access privileges. This procedure would be performed
      outside the realm of EEE.

3.	   Aged Open Personnel Separations: The EEE system will have an exception
      notification feature that notifies DO Office administrators or action initiators that an
      employee separation created in EEE is not recorded as closed in EEE and follow-up
      action is needed. The notification may be through a report and/or email notification.




                                           31 

                                                                                  EXHIBIT 1

                          DEPARTMENT OF THE TREASURY
                                      Fiscal Year 2006 

                                  Management Letter Report 

                     Status of Prior Year Management Letter Comments 


          Prior Year Recommendations                                  Current Year Status

05-01   Succession Planning Must be Implemented       This comment has not been corrected and is repeated
        Immediately                                   in the current year as comment # 06-01.
05-02   Financial Reporting Standards for             This comment has not been corrected and is repeated
        Department Component Entities Should be       in the current year as comment # 06-02.
        Consistent
05-03   The Exchange Stabilization Fund’s Budgetary   This comment has not been corrected and is repeated
        Accounting Methodology Should be Clarified    in the current year as comment # 06-03.
05-04   Annual Reconciliation Procedures to the       This comment has been partially corrected and is
        President’s Budget Should be Improved         repeated in the current year as part of comment
                                                      # 06-04.
05-05   A Formal Process Is Needed to Monitor the     This comment has been resolved and closed.
        Use of Sensitive System Software Utilities
05-06   Access Controls over the TIER System          This comment has been resolved and closed.
        Should be Strengthened
05-07   Configuration Management Processes Over       This comment has been resolved and closed.
        CFO Vision Need Improvement
05-08   CFO Vision Access Controls Should be          This comment has been resolved and closed.
        Strengthened
05-09   Financial Analysis and Reporting System       This comment has been resolved and closed.
        (FARS) Access Controls Should be
        Strengthened
05-10   Back-up Tapes for the TIER System and CFO     This comment has not been corrected and is repeated
        Vision Production Servers Should be           in the current year as comment # 06-09.
        Protected
05-11   Formal Continuity of Operations Plan and      This comment has not been corrected and is repeated
        Disaster Recovery Procedures for TIER and     in the current year as comment # 06-10.
        CFO Vision Should be Established




                                             32 

